Amended Certificate of Service
11/4/2019
Herewith are 40 of the paperbooks
No.
In the

Supreme Court of the United States
MICHAEL A. DEEM, PETITIONER,
V.

JOHN P. COLANGELO,
JUSTICE OF THE SUPREME COURT,
COUNTY OF WESTCHESTER

PETITION FOR WRIT OF CERTIORARI

I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner
indicated below. Service by first-class mail addressed as follows:
Hon. Alan D. Scheinkman,
Supreme Court State of NY
Appellate Division/2nd Dept
44 S. Broadway, 5th Flr
White Plains, NY 10601

Hon. Janet Difiore
Supreme Court State of NY
Appellate Division/2nd Dept
44 S. Broadway, 5th Fir
White Plains, NY 10601

Hon. Lawrence K. Marks
Supreme Court State of NY
Appellate Division/2nd Dept
44 S. Broadway, 5th Fir
White Plains, NY 10601

Hon. John P. Colangelo
Supreme Court State of NY
Appellate Division/2nd Dept
44 S. Broadway, 5th Flr
White Plains, NY 10601

Loma Dimella
83 Hawthorne Place
Briarcliff Manor, NY 10510

Letitia James
Attorney General
State of New York
The Capitol
Albany, NY 12224

Loma M. DiMella-Deem
Respondent, Pro Se
83 Hawthorn Place
Briarcliff Manor, NY 10510

OD CURRY
CURRY & TAYLOR LLC

1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

